"'~ ~
( f:
"t+",,

    ~""'..iQ
 ~'~4'''V1C'S.Ú''
                            DEPARTMENT OF
                            DEPARTMENT OF HEALTH
                                          HEALTH &.
                                                 &. HUMAN SERVICES                                                          Office of
                                                                                                                                   of Inspector



                                                                                                                            Washington,
                                                                                                                                       Inspector General
                                                                                                                                                 General



                                                                                                                                        D.C. 20201

                                                                                                                            Washington, D.C. 20201




                                                                        MAY
                                                                        MAY 22 00 2009
                                                                                   2009


                    TO:
                    TO:       Charlene  Frizzera
                                   Charlene Frizzera
                                         Acting Administrator
                                         Centers for
                                         Centers for Medicare
                                                     Medicare &&Medicai
                                                                Medicai Services
                                                                        Services


                    FROM:
                    FROM:           oseph E. E.Vengrin
                                       oseph    Vengrin
                                         Deputy Inspector General for Audit Services


                    SUBJECT:
                    SUBJECT: Review of   Review of Medicaid         Outpatient
                                                    Medicaid Outpatient               Drug
                                                                        Drug Expenditures in theExpenditures
                                                                                                 State of    in the State of New York for
                                                    October 1,2003, Through September
                                         the Period October                                    September 30,2005
                                                                                                          30,2005 (A-02-07-0l028)


                    Attached is an advance copy of                  of our final report on the results of        of our review of
                                                                                                                               of Medicaid
                    outpatient                    in the State of 
 in the State of New York for
                                     drug expenditures
                    outpatient drug expenditures                                                         for the
                                                                                                             the period
                                                                                                                 period October
                                                                                                                         October 1,2003,
                                                                                                                                  1,2003, through
                    September         30,
                    September 30, 2005.     2005.
                                        We will         Wereport
                                                 issue this    willto issue    thisState
                                                                      the New York    report        the New York State Department of Health (the
                                                                                                to of

                                                                                         Department

                             agency) within 5 business days.
                    State agency)

                    Under the Medicaid drug rebate program, the Centers for Medicare &      & Medicaid Services (CMS)
                    provides the States with a quarterly Medicaid drug tape, which lists all covered outpatient drugs,
                    indicates a drug's termination
                                       termination date
                                                   date ififapplicable,
                                                            applicable, and
                                                                        and specifies
                                                                             specifies whether
                                                                                       whether the
                                                                                                the Food
                                                                                                    Food and
                                                                                                         and Drug
                                                                                                              Drug
                    Administration has determined the drug to  to be less
                                                                     less than effective.
                                                                               effective. CMS
                                                                                          CMS guidance
                                                                                                 guidance instructs
                                                                                                          instructs the
                                                                                                                    the States
                                                                                                                        States to
                    use the tape to verify coverage of
                                                    of the drugs for which they claim reimbursement.

                    Our    objective
                    Our objective          was towhether
                                  was to determine  determine        whether
                                                         the State agency's        thereimbursement
                                                                            claims for  State agency's
                                                                                                    of
 claims for reimbursement of Medicaid
                    outpatient drug expenditures complied with Federal requirements.

                    The    State
                    The State       agency's
                              agency's              claims for
                                       claims for reimbursement of
 reimbursement of Medicaid outpatient drug expenditures for fiscal

                    years
                    years 20042004
                               and 2005and   2005
                                        did not       did not
                                                fully comply       fullyrequirements.
                                                             with Federal comply Ofwith Federal requirements. Of the     the $10.1
                                                                                                                              $10.1 billion
                                                                                                                                      bilion

                    ($5.2
                    ($5.2 billion        Federal share)
                              bilion Federal          share) in  in claimed
                                                                     claimed Medicaid
                                                                                 Medicaid reimbursement,
                                                                                             reimbursement, $1,236,302
                                                                                                                $1,236,302 (Federal
                                                                                                                             (Federal share)
                                                                                                                                        share)
                    represented expenditures for drug products that were not eligible for Medicaid coverage because
                    they were (1) terminated drugs for which the termination dates were listed on the CMS quarterly
                    drug tape beforebefore the drugs were dispensed, (2) drugs listed on the CMS quarterly drug tape as
                    less than
                    less   than effective,
                                   effective, or   or (3)
                                                        (3) inadequately
                                                             inadequately supported
                                                                                 supported with
                                                                                              with documentation.
                                                                                                    documentation. In In addition,
                                                                                                                         addition, $16,189,125
                                                                                                                                     $16,189,125
                    (Federal      share)     represented         expenditures       for  drug  products  that were
                    (Federal share) represented expenditures for drug products that were not listed on the quarterlynot listed on  the  quarterly
                    drug tapes.
                    drug     tapes. Because
                                        Because the   the State
                                                            State agency
                                                                     agency diddid notnot verify
                                                                                          verify whether
                                                                                                  whether the drugs missing from the tapes
                    were eligible for Medicaid coverage, these drug expenditures may not be allowable for Medicaid
                    reimbursement.             For ofthe
                    reimbursement. For the remainder    
 remainder of the $10.1                     ($5.2 billion
                                                                                      $10.1 billion ($5.2  billon Federal
                                                                                                                   Federal share)
                                                                                                                            share) claimed,
                                                                                                                                    claimed, we
                    identified no    no other
                                          other errors
                                                   errors with respect to       to whether
                                                                                    whether thethe drugs
                                                                                                   drugs were
                                                                                                          were terminated, less
                                                                                                                             less than
                                                                                                                                  than effective,
                                                                                                                                         effective,
                    supported with adequate documentation, or included on the CMS quarterly drug tapes.
Page 2 – Charlene Frizzera


The improper claims were submitted for Medicaid reimbursement because the State agency did
not have controls to adequately ensure that outpatient drug expenditures complied with Federal
requirements.

We are recommending that the State agency:

    •   refund $1,236,302 to the Federal Government for drug expenditures that were not
        eligible for Medicaid coverage;

    •   work with CMS to resolve $16,189,125 in payments for drugs that were not listed on the
        quarterly drug tapes and, therefore, may not have been eligible for Medicaid
        reimbursement; and

    •   strengthen internal controls to ensure that claimed Medicaid drug expenditures comply
        with Federal requirements, specifically:

             o claim expenditures only for drugs that are dispensed before the termination dates
               listed on the quarterly tapes,

             o claim expenditures only for drugs that are not listed as less than effective on the
               quarterly drug tapes,

             o maintain documentation that supports the expenditures reported on the Form
               CMS-64, and

             o verify whether drugs not listed on the quarterly drug tapes are covered under the
               Medicaid program and notify CMS when drugs are missing from the tapes.

The State agency generally agreed with our first and second recommendations and agreed with
our third recommendation. The State agency said that rebates credited to the Federal
Government should have been taken into account in determining the appropriate refund amounts.
The State agency also disputed the disallowance of claims for less-than-effective drugs in
situations where expenditures were incurred before the State agency received notification from
CMS that the drugs were not eligible for Federal reimbursement. Nothing in the State agency’s
comments has given us cause to change our findings and recommendations.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through e-mail at George.Reeb@oig.hhs.gov
or James P. Edert, Regional Inspector General for Audit Services, at (212) 264-4620 or through
e-mail at James.Edert@oig.hhs.gov. Please refer to report number A-02-07-01028.


Attachment
                                                                                                  Oflce
                                                                                                  Office Of  Inspeor General
                                                                                                         Of Inspector General
 ~ß'V'.~.
                                                                                                 Office Of
                                                                                                        or Audit services
                                                                                                                 services




(J.                 DEPARTMENT
                    DEPARTMT OFOFHEALTH
                                  HEALTH&&HUAN
                                           HUMAN


                                              MAY
                                                 S~VICES
                                               SERVICES


                                              MAY 22 662009
                                                        2009
                                                                                                  Region IIII
                                                                                                  Region
                                                                                                 Jacob K. Javlt
                                                                                                 JacobK.
                                                                                                  28 Fld8ral
                                                                                                  26 FeBt.1 PIUII
                                                                                                                 Faderal Building
                                                                                                          Javlta Federal
                                                                                                             PIII

                                                                                                                         Building


Report Number:
       Number: A-02-07-01028
               A-02-07-01028                                                                      New York,
                                                                                                  New York, NY
                                                                                                            NY 10278
                                                                                                               10278..

 Richard F. Daines, M.D.
 Commissioner
 New
 New York York     State ofDepartment
          State Department  
         of Health
 14th Floor,
 14th    Floor, Corning
                    Corning Tower
                              Tower
 Empire State Plaza
 Albany, New York 12237
'Albany,                      12237

Dear Dr. Daines:

Enclosed is the U.S. Department of Health
Enclosed is the U.S. Deparment of                     Health  andServices
                                                         and Human Human  (HHS),Services
                                                                                 Office of
 (HHS), Office of Inspector
General
General (010),(OIG),     final
               final report       report
                            entitled "Review entitled
                                             of 
     "Review of Medicaid Outpatient Drug Expenditures in the
Stateof of
State    
   New York York for for the
                                     the Period
                                           PeriodOctober
                                                    October1,2003,
                                                              1,2003,Through
                                                                          ThroughSeptember
                                                                                         September30,2005."
                                                                                                   30,2005." WeWe will
                                                                                                                   wil
forward
forward a copyaofcopy
                  
      of this report to.the action official noted on the following page for review and
any action deemed necessary.

The HHSHHS action
                action official
                            offcial wilwillmakemakefinal finaldetermination
                                                                 determinationas asto
                                                                                    toactions
                                                                                       actionstaken
                                                                                               taken on
                                                                                                     on all
                                                                                                        all matters
                                                                                                            matters reported.
                                                                                                                     reported.
We
We    request
   request that youthat   you
                    respond      respond
                            to this            to this
                                    official within       official
                                                    30 days           within
                                                            from the date of 30 days from the date of this letter.
                                                                                                            letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

          to the
Pursuant to  the Freedom
                  Freedom ofInformation
                            ofInformation Act, 5 U.S.C.
                                                   U.S.C. § 552,
                                                             552, OIG
                                                                  010 reports
                                                                         reports generally
                                                                                 generally are
                                                                                           are made
available to
          to the
              the public
                  public to
                         to the extent that information in the report is not subject to exemptions in
    Act. Accordingly,
the Act. Accordingly, this report wil
                                    willbebeposted
                                             postedon
                                                    onthe
                                                       the Internet
                                                            Internet at
                                                                     at http://oig.hhs.gov.
                                                                        http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Richard
        Richard Schlitt,
                Schlitt, Audit Manager, at (212) 264-4817 or through e-mail at
Richard.Schlitt§oig.hhs.gov. Please
Richard.Schlitt@oig.hhs.gov.   Pleaserefer
                                      refertotoreport
                                                reportnumber
                                                      number A-02-07-01028
                                                             A-02-07-01028 in all
correspondence.




                                                      rf,
                                                          Sincerely,



                                                      rf,E~
                                                          James P. Edert
                                                                          ErkAt:
                                                          Regional Inspector General
                                                          Regional           Oeneral
                                                            for Audit Services
                                                            for


Enclosure
Page 2 – Richard F. Daines, M.D.


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




     REVIEW OF MEDICAID
      OUTPATIENT DRUG
 EXPENDITURES IN THE STATE OF
   NEW YORK FOR THE PERIOD
  OCTOBER 1, 2003, THROUGH
     SEPTEMBER 30, 2005




                    Daniel R. Levinson
                     Inspector General

                        May 2009
                      A-02-07-01028
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the Centers
for Medicare & Medicaid Services (CMS) administers the program. Each State administers its
Medicaid program in accordance with a CMS-approved State plan. Although the State has
considerable flexibility in designing and operating its Medicaid program, it must comply with
applicable Federal requirements. In New York, the Department of Health (the State agency)
administers the Medicaid program.

In addition to providing mandatory Medicaid services, States may offer certain optional services,
such as outpatient prescription drugs, to eligible Medicaid beneficiaries. Most States, including
New York, administer their Medicaid prescription drug programs in accordance with the
Medicaid drug rebate program. The program generally pays for covered outpatient drugs if the
drug manufacturers have rebate agreements with CMS and pay rebates to the States. Under the
drug rebate program, CMS provides the States with a quarterly Medicaid drug tape, which lists
all covered outpatient drugs, indicates a drug’s termination date if applicable, and specifies
whether the Food and Drug Administration has determined the drug to be less than effective.
CMS guidance instructs the States to use the tape to verify coverage of the drugs for which they
claim reimbursement.

In New York, the State agency claims Medicaid expenditures on Form CMS-64, “Quarterly
Medicaid Statement of Expenditures for the Medical Assistance Program.” CMS reimburses the
State agency based on the Federal medical assistance percentage for the majority of claimed
Medicaid outpatient drug expenditures.

OBJECTIVE

Our objective was to determine whether the State agency’s claims for reimbursement of
Medicaid outpatient drug expenditures complied with Federal requirements.

SUMMARY OF FINDINGS

The State agency’s claims for reimbursement of Medicaid outpatient drug expenditures for fiscal
years 2004 and 2005 did not fully comply with Federal requirements. Of the $10.1 billion
($5.2 billion Federal share) in claimed Medicaid reimbursement, $1,236,302 (Federal share)
represented expenditures for drug products that were not eligible for Medicaid coverage because
they were (1) terminated drugs for which the termination dates were listed on the CMS quarterly
drug tape before the drugs were dispensed, (2) drugs listed on the CMS quarterly drug tape as
less than effective, or (3) inadequately supported with documentation. An additional
$16,189,125 (Federal share) represented expenditures for drug products that were not listed on
the quarterly drug tapes. Because the State agency did not verify whether the drugs missing
from the tapes were eligible for Medicaid coverage, these drug expenditures may not be



                                                i
allowable for Medicaid reimbursement. For the remainder of the $10.1 billion ($5.2 billion
Federal share) claimed, we identified no other errors with respect to whether the drugs were
terminated, less than effective, supported with adequate documentation, or included on the CMS
quarterly drug tapes.

The improper claims were submitted for Medicaid reimbursement because the State agency did
not have controls to adequately ensure that outpatient drug expenditures complied with Federal
requirements.

RECOMMENDATIONS

We recommend that the State agency:

    •   refund $1,236,302 to the Federal Government for drug expenditures that were not
        eligible for Medicaid coverage;

    •   work with CMS to resolve $16,189,125 in payments for drugs that were not listed on the
        quarterly drug tapes and, therefore, may not have been eligible for Medicaid
        reimbursement; and

    •   strengthen internal controls to ensure that claimed Medicaid drug expenditures comply
        with Federal requirements, specifically:

           o claim expenditures only for drugs that are dispensed before the termination dates
             listed on the quarterly tapes,

           o claim expenditures only for drugs that are not listed as less than effective on the
             quarterly drug tapes,

           o maintain documentation that supports the expenditures reported on the Form
             CMS-64, and

           o verify whether drugs not listed on the quarterly drug tapes are covered under the
             Medicaid program and notify CMS when drugs are missing from the tapes.

STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

In written comments on our draft report, the State agency did not agree to refund $1,236,302 to
the Federal Government but did agree to refund reimbursement for ineligible claims. The State
agency said that rebates credited to the Federal Government should have been taken into account
in determining the appropriate refund amounts. The State agency disagreed with the
disallowance of claims for less-than-effective drugs in situations where expenditures were
incurred before the State agency received notification from CMS that the drugs were not eligible
for Federal reimbursement. The State agency agreed to work with CMS to resolve payments for
drugs not listed on the quarterly drug tapes but stated its belief that the amount would be less


                                               ii
than $16,189,125. The State agency also agreed with the third recommendation. The State
agency’s comments appear in their entirety as the Appendix.

We indicated in the methodology section of our report that we did not reduce the questioned drug
expenditures by rebates that the State received. The State agency may not claim rebates on drug
expenditures not eligible for Federal reimbursement. If the State agency had collected rebates
for these expenditures, it should have refunded the rebates (including the portion paid to the
Federal Government) to the manufacturers. Therefore, these rebates would have no dollar effect
on our recommended disallowance. Regarding the State agency’s concerns about claims for
less-than-effective drugs, we did not question expenditures incurred before the State agency
received notification from CMS that the drugs were not eligible for Federal reimbursement.
Rather, we used the first day of the quarter after the State agency received the tape as the date the
drug was classified as less than effective. Nothing in the State agency’s comments has given us
cause to change our findings and recommendations.




                                                 iii
                                                  TABLE OF CONTENTS
                                                                                                                                     Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              Medicaid Program................................................................................................1
              Medicaid Outpatient Prescription Drug Program ................................................1
              Reimbursement of Medicaid Expenditures..........................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................2
               Objective ..............................................................................................................2
               Scope....................................................................................................................2
               Methodology ........................................................................................................2

FINDINGS AND RECOMMENDATIONS ............................................................................3

          CLAIMS FOR TERMINATED DRUGS ........................................................................4

          CLAIMS FOR LESS-THAN-EFFECTIVE DRUGS......................................................4

          CLAIMS FOR INADEQUATELY SUPPORTED DRUG EXPENDITURES ..............5

          CLAIMS FOR DRUGS NOT LISTED ON QUARTERLY DRUG TAPES..................5

          INADEQUATE CONTROLS TO DETECT UNALLOWABLE AND
            POTENTIALLY UNALLOWABLE CLAIMS FOR DRUG EXPENDITURES........6

          REIMBURSEMENT OF UNALLOWABLE AND POTENTIALLY
           UNALLOWABLE CLAIMS FOR DRUG EXPENDITURES....................................6

          RECOMMENDATIONS.................................................................................................6

          STATE AGENCY COMMENTS....................................................................................7

          OFFICE OF INSPECTOR GENERAL RESPONSE ......................................................7

APPENDIX

          STATE AGENCY COMMENTS




                                                                    iv
                                               INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In New York, the Department of Health (the State
agency) administers the Medicaid program.

State Medicaid programs must provide certain medical services, including inpatient and
outpatient hospital, physician, and family planning services. States also may offer certain
optional services, such as outpatient prescription drugs, as long as the services are included in
their approved State plans.

Medicaid Outpatient Prescription Drug Program

All States offer outpatient prescription drugs to eligible Medicaid beneficiaries. Most States,
including New York, administer their Medicaid prescription drug programs in accordance with
the Medicaid drug rebate program. 1 The program generally pays for covered outpatient drugs if
the drug manufacturers have rebate agreements with CMS and pay rebates to the States. The
rebate agreements require manufacturers to provide a list of all covered outpatient drugs to CMS
quarterly. CMS includes these drugs on a quarterly Medicaid drug tape, makes adjustments for
any errors, and sends the tape to the States. The tape indicates a drug’s termination date, 2 if
applicable; specifies whether the drug is less than effective; 3 and includes information that the
States use to claim rebates from drug manufacturers. CMS guidance instructs the States to use
the tape to verify coverage of the drugs for which they claim reimbursement and to calculate the
rebates that the manufacturers owe.




1
 The Omnibus Budget Reconciliation Act of 1990, P.L. No. 101-508, established the Medicaid drug rebate program
effective January 1, 1991. The program is set forth in section 1927 of the Act. Arizona is the only State that does
not participate in the program.
2
 The termination date, which the manufacturer submits to CMS, reflects the shelf-life expiration date of the last
batch sold for a particular drug code. However, if the drug is pulled from the market for health or safety reasons, the
termination date is the date that the drug is removed from the market.
3
 The Food and Drug Administration determines whether drugs are less than effective. Such drugs lack substantial
evidence of effectiveness for all conditions of use prescribed, recommended, or suggested in their labeling.


                                                          1
Reimbursement of Medicaid Expenditures

In New York, the State agency claims Medicaid expenditures on Form CMS-64, “Quarterly
Medicaid Statement of Expenditures for the Medical Assistance Program” (Form CMS-64).
CMS reimburses the State agency based on the Federal medical assistance percentage
(reimbursement rate) for the majority of claimed Medicaid expenditures, including outpatient
drug expenditures.

For Federal fiscal years (FY) 2004 and 2005, New York’s Federal reimbursement rate for
Medicaid expenditures varied from 50 percent to 52.95 percent, and its enhanced reimbursement
rates varied from 65 percent to 90 percent.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency’s claims for reimbursement of
Medicaid outpatient drug expenditures complied with Federal requirements.

Scope

The audit scope included $10.1 billion ($5.2 billion Federal share) in Medicaid outpatient drug
expenditures that the State agency claimed for FYs 2004 and 2005. We limited our testing of
these expenditures to determining compliance with specific Federal requirements and guidance
related to whether the drugs were terminated, less than effective, supported with adequate
documentation, and included on the CMS quarterly tapes.

We limited our internal control review to the State agency’s procedures for determining whether
the outpatient drugs were eligible for Medicaid coverage and were accurately claimed for
Federal reimbursement. We did not review the accuracy or completeness of the quarterly
Medicaid drug tapes.

We conducted fieldwork at the State agency’s offices in Albany, New York.

Methodology

To accomplish our objective, we reviewed applicable Federal laws, regulations, and program
guidance and the State plan. We interviewed State agency officials responsible for identifying
and monitoring drug expenditures and rebate amounts. We also interviewed staff responsible for
reporting drug expenditures to CMS.

We used the quarterly drug tapes for the period October 1, 1999, through June 30, 2006. We
reconciled the amounts that the State agency reported on its Forms CMS-64 to a detailed list of
the State agency’s outpatient drug expenditures. We also used the detailed list of drug
expenditures to determine whether the expenditures complied with Federal requirements.
Specifically, we determined whether the drugs for which the State agency claimed



                                                2
reimbursement were dispensed after the termination dates listed on the quarterly drug tape or
were listed as less than effective on the tape. In addition, we determined whether CMS had
included the termination dates on the quarterly drug tape in a timely manner—that is, before
terminated drugs could be dispensed. To account for reasonable delays in processing data for
terminated drugs, we used the first day of the quarter after the State received the tape as the
termination date if the termination dates were provided to the States retroactively.

We also determined whether the drugs claimed for reimbursement were listed on the applicable
quarterly drug tape. If the drugs were not listed on the tape, we determined whether the State
agency had verified whether the drugs were eligible for Medicaid coverage. If the drugs were
compound drugs, we requested supporting documentation that identified the individual drug
components. 4

We obtained the Federal share of the expenditures from the Medicaid Management Information
System, which the State agency uses to process Medicaid claims. 5 We did not reduce the
questioned drug expenditures by the rebate amounts that the State received.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                              FINDINGS AND RECOMMENDATIONS

The State agency’s claims for reimbursement of Medicaid outpatient drug expenditures for
FYs 2004 and 2005 did not fully comply with Federal requirements. Of the $10.1 billion
($5.2 billion Federal share) claimed, $2,409,985 ($1,236,302 Federal share) represented
expenditures for drug products that were not eligible for Medicaid coverage because they were
(1) terminated drugs for which the termination dates were listed on the CMS quarterly drug tape
before the drugs were dispensed, (2) drugs listed on the CMS quarterly drug tape as less than
effective, or (3) inadequately supported with documentation. An additional $31,952,653
($16,189,125 Federal share) represented expenditures for drug products that were not listed on
the quarterly drug tapes. Because the State agency did not verify whether the drugs missing
from the tapes were eligible for Medicaid coverage, these drug expenditures may not have been
allowable for Medicaid reimbursement. For the remainder of the $10.1 billion ($5.2 billion
Federal share) claimed, we identified no other errors with respect to whether the drugs were
terminated, less than effective, supported with adequate documentation, or included on the CMS
quarterly drug tapes.


4
 Compound drugs are created by combining two or more prescription or nonprescription drug products and
repackaging them into a new capsule or other dosage form.
5
 We calculated the Federal share of New York’s Medicaid expenditures during the period from October 1, 2003,
through June 30, 2004, when its Federal reimbursement rate was 52.95 percent. During the remainder of the audit
period, we were able to obtain the Federal share from the Medicaid Management Information System because
New York’s Federal reimbursement rate was equal to its normal Federal share amount (i.e., 50 percent).


                                                        3
The State agency had inadequate controls to ensure that its outpatient drug expenditures
complied with Federal requirements.

CLAIMS FOR TERMINATED DRUGS

Pursuant to 21 CFR § 211.137, each drug must have an expiration date to ensure that the drug
meets certain standards, including strength and quality, at the time of its use. The expiration date
effectively establishes a shelf life for the product. The termination date equals the expiration
date of the last batch sold, except in cases when the product is pulled from the market. In those
cases, the termination date may be earlier than the expiration date.

According to the CMS Medicaid drug rebate program release to State Medicaid directors,
number 19, the States “MUST . . . ASSURE that claims submitted by pharmacists are NOT for
drugs dispensed AFTER the termination date. These should be rejected as invalid since these
drugs cannot be dispensed after this date.” (Emphasis in the original.)

In addition, the CMS Medicaid drug rebate program release to State Medicaid directors, number
130, states that “ . . . the CMS [quarterly drug tape] is the one to use for ALL data when you are
dealing with the drug rebate program . . . .” The quarterly drug tapes list the Medicaid-covered
drugs’ termination dates as reported by the drug manufacturers.

For FYs 2004 and 2005, the State agency claimed $1,106,367 ($578,321 Federal share) in
expenditures for drugs that, according to the State’s records, were dispensed after the termination
dates shown on the quarterly drug tapes. For example, the State agency paid for the drug Zocor,
which was dispensed on August 22, 2004. However, according to the tapes beginning with the
quarter ended March 31, 2002, the drug’s termination date was May 31, 2004. Therefore, the
claimed expenditure was unallowable because it occurred after the drug’s termination date,
which was listed on the quarterly drug tape at the time the State agency made the expenditures.

CLAIMS FOR LESS-THAN-EFFECTIVE DRUGS

Section 1903(i)(5) of the Act prohibits Federal Medicaid funding for drug products that are
ineligible for Medicare payment pursuant to section 1862(c) of the Act. Section 1862(c)
prohibits Federal funding for drug products determined to be less than effective for all conditions
prescribed, recommended, or suggested on the product’s label. According to the CMS Medicaid
drug rebate program release to State Medicaid directors, number 130: “. . . the CMS [quarterly
drug tape] is the one to use for ALL data when you are dealing with the drug rebate
program . . . .” The quarterly drug tapes identify drugs that have been determined to be less than
effective.

For FYs 2004 and 2005, the State agency claimed $173,467 ($89,650 Federal share) in
expenditures for drugs classified as less than effective on the quarterly drug tapes. For example,
the State paid for the drug Estratest, which was dispensed on September 23, 2004. However,
CMS reported the drug as less than effective on the tapes beginning with the quarter that ended
September 30, 2003. The claimed expenditure was unallowable because the drug was dispensed
after CMS reported it as less than effective.



                                                 4
CLAIMS FOR INADEQUATELY SUPPORTED DRUG EXPENDITURES

Section 1927 of the Act generally defines which covered outpatient drugs are allowable for
Federal reimbursement under the Medicaid program. To receive reimbursement for covered
drugs, States must maintain documentation identifying the specific drugs used. According to the
CMS “State Medicaid Manual,” section 2497.1: “Expenditures are allowable only to the extent
that, when a claim is filed, you have adequate supporting documentation in readily reviewable
form to assure that all applicable Federal requirements have been met.”

For FYs 2004 and 2005, the State agency claimed $1,130,151 ($568,331 Federal share) in drug
expenditures on its quarterly Forms CMS-64 for which it did not have any supporting
documentation that identified which drugs were claimed. The drugs were compound drugs made
up of two or more prescription or nonprescription drug products. The State agency created its
own drug codes for the compound drugs, but it could not identify the individual drugs that were
included. Without this supporting documentation, the State agency could not demonstrate that
its claims for reimbursement were covered under the Medicaid program. These claims were
therefore unallowable. 6

CLAIMS FOR DRUGS NOT LISTED ON QUARTERLY DRUG TAPES

Section 1927(a)(1) of the Act generally conditions Medicaid reimbursement for covered
outpatient drugs on a requirement that manufacturers of those products enter into rebate
agreements with CMS under which they pay rebates to the States. 7 The rebate agreements
require manufacturers to provide a list of all covered outpatient drugs to CMS quarterly. CMS
includes these drugs on the quarterly drug tapes and makes adjustments for any errors.
According to the CMS Medicaid drug rebate program release to State Medicaid directors,
number 130: “. . . the CMS [quarterly drug tape] is the one to use for ALL data when you are
dealing with the drug rebate program . . . . If [a drug code] that is not on the last CMS [quarterly
drug tape] you received is billed to you by a pharmacy . . . check with CMS to assure that the
[drug code] is valid . . . .” Furthermore, the CMS Medicaid drug rebate program release to State
Medicaid directors, number 44, provides that: “States must check the [quarterly drug tape] to
ensure the continued presence of a drug product . . . .”

In addition, page S13 of CMS’s “Medicaid Drug Rebate Operational Training Guide,” states: “If
you have paid for [a drug code] that is NOT on [the quarterly drug tape] you should have
checked to make sure it was correct. If you paid a pharmacy for utilization on an invalid [drug
code], you may have to . . . recoup your funds.”



6
 In addition, New York did not receive rebates owed for covered outpatient drugs that may have been used in
making compound drugs. The State did not invoice the drug manufacturers for such drugs because it could not
identify the individual components of the compound drugs.
7
 Pursuant to section 1927(a)(3) of the Act, a State may exempt certain drugs from the requirement to be covered by
a drug rebate agreement if the State has determined that availability of the drug is essential to the health of Medicaid
beneficiaries.



                                                           5
For FYs 2004 and 2005, the State agency claimed $31,952,653 ($16,189,125 Federal share) in
expenditures for drug products that were not listed on the quarterly drug tapes. The State agency
did not contact CMS to ensure that these drugs were eligible for Medicaid coverage under the
Act. As a result, the State agency did not have conclusive evidence indicating that these
payments were allowable Medicaid expenditures.

INADEQUATE CONTROLS TO DETECT UNALLOWABLE AND
POTENTIALLY UNALLOWABLE CLAIMS FOR DRUG EXPENDITURES

The State agency did not have adequate controls to ensure that all Medicaid drug expenditures
complied with Federal requirements or to detect unallowable and potentially unallowable claims
for reimbursement. For some of its drug claims, the State agency did not maintain supporting
documentation that identified which drugs it claimed and, therefore, could not demonstrate that
the claims were covered under the Medicaid program. The State agency also did not check the
quarterly drug tapes to ensure that the drugs were eligible for Medicaid coverage.

REIMBURSEMENT OF UNALLOWABLE AND POTENTIALLY
UNALLOWABLE CLAIMS FOR DRUG EXPENDITURES

The State agency claimed Federal reimbursement for certain drugs that were not eligible for
Medicaid coverage because they were terminated, less than effective, or inadequately
documented. As a result, for FYs 2004 and 2005, the State agency claimed unallowable
expenditures totaling $2,409,985 ($1,236,302 Federal share) for these drugs. The State agency
also claimed Federal reimbursement for drug products that were not listed on the quarterly drug
tapes. For these drugs, we set aside potentially unallowable expenditures totaling $31,952,653
($16,189,125 Federal share) for CMS adjudication because the State agency did not determine
whether the drugs were covered by Medicaid.

RECOMMENDATIONS

We recommend that the State agency:

    •   refund $1,236,302 to the Federal Government for drug expenditures that were not
        eligible for Medicaid coverage;

    •   work with CMS to resolve $16,189,125 in payments for drugs that were not listed on the
        quarterly drug tapes and, therefore, may not have been eligible for Medicaid
        reimbursement; and

    •   strengthen internal controls to ensure that claimed Medicaid drug expenditures comply
        with Federal requirements, specifically:

           o claim expenditures only for drugs that are dispensed before the termination dates
             listed on the quarterly tapes,




                                                6
            o claim expenditures only for drugs that are not listed as less than effective on the
              quarterly drug tapes,

            o maintain documentation that supports the expenditures reported on the Form
              CMS-64, and

            o verify whether drugs not listed on the quarterly drug tapes are covered under the
              Medicaid program and notify CMS when drugs are missing from the tapes.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency did not agree to refund $1,236,302 to
the Federal Government but did agree to refund the net Federal funds reimbursed for ineligible
claims. The State agency said that rebates credited to the Federal Government should have been
taken into account in determining the appropriate refund amounts. The State agency disagreed
with the disallowance of claims for less-than-effective drugs in situations where expenditures
were incurred before the State agency received notification from CMS that the drugs were not
eligible for Federal reimbursement. The State agency agreed to work with CMS to resolve
payments for drugs not listed on the quarterly drug tapes but stated its belief that the amount
would be less than $16,189,125. The State agency also agreed with the third recommendation.
The State agency’s comments appear in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

We indicated in the methodology section of our report that we did not reduce the questioned drug
expenditures by the rebates that the State had received. The State agency may not claim rebates
on drug expenditures not eligible for Federal reimbursement. If the State agency had collected
rebates for these expenditures, it should have refunded the rebates (including the portion paid to
the Federal Government, if any) to the manufacturers. Therefore, these rebates would have no
dollar effect on our recommended disallowance. Regarding the State agency’s concerns about
claims for less-than-effective drugs, we did not question expenditures incurred before the State
agency received notification from CMS that the drugs were not eligible for Federal
reimbursement. Rather, we used the first day of the quarter after the State agency received the
tape as the date the drug was classified as less than effective. Nothing in the State agency’s
comments has given us cause to change our findings and recommendations.




                                                7
APPENDIX
APPENDIX
 Page 1 of 4
APPENDIX
 Page 2 of 4
APPENDIX
 Page 3 of 4
APPENDIX
 Page 4 of 4
